APPENDIX TABLE OF CONTENTS
Order of the Supreme Court of California Denying
Petition for Review and Application for Stay
(May 1, 2019)........................................................... la
Order of the Court of Appeals Denying Petition
for Writ of Mandate and Stay of Proceedings
(April 12, 2019)....................................................... 2a
Order Denying Immediate Stay Request
(April 8, 2019).......................................

4a

Minute Order of the Superior Court of California
(March 18, 2019)..................................................... 5a
Petition for Review, Emergency Writ of Mandate,
Stay of Proceedings and/or Other Appropriate
Relief; Memorandum of Points and Authorities;
Exhibits—Relevant Excerpts.............................. 7a

App.la
ORDER OF THE SUPREME COURT OF
CALIFORNIA DENYING PETITION FOR REVIEW
AND APPLICATION FOR STAY
(MAY 1, 2019)
IN THE SUPREME COURT OF CALIFORNIA
ARTHUR EDWARD EZOR,
Petitioner,
•v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent.
THE PEOPLE
Real Party in Interest.
S255335
Court of Appeal, Second Appellate District,
Division Five - No. B296721
Before: CANTIL-SAKAUYE, Chief Justice
The petition for review and application for stay
are denied.
/s/ Cantil-Sakauve
Chief Justice

App.2a
ORDER OF THE COURT OF APPEALS
DENYING PETITION FOR WRIT OF MANDATE
AND STAY OF PROCEEDINGS
(APRIL 12, 2019)
IN THE COURT OF APPEALS OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT,
DIVISION FIVE
ARTHUR EDWARD EZOR,
Petitioner,
v.
THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent.
THE PEOPLE,
Real Party in In teres t.
B296721
(Super. Ct. No. BA441505) (Craig Veals, Judge)
Before: RUBIN, P.J., MOOR, J., and KIM, J.
THE COURT:
The court has read and considered the petition
for writ of mandate filed April 5, 2019. The petition is
denied. Petitioner fails to demonstrate the respondent
court abused in discretion in denying his motion to

App.3a

dismiss and/or disqualify the District Attorney’s Office.
(.Rochin v. California (1952) 342 U.S. 165, 172; People
v. Velasco-Palacios (2015) 235 Cal.App.4th 439, 445;
Boulas v. Superior Court (1986) 188 Cal.App.3d 422,
429, 435; Pen. Code, § 1424, subd. (a)(l); Haraguchi
v. Superior Court (2008) 43 Cal.4th 706, 719.)

Isl Rubin. P.J.
/s/ Moor. J.
/s/ Kim, J.

App.4a
ORDER DENYING IMMEDIATE STAY REQUEST
(APRIL 8, 2019)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT
DIVISION FIVE
ARTHUR EDWARD EZOR,
Petitioner,
v.
THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent.
THE PEOPLE,
Real Party in Interest.
B296721
(Super. Ct. No. BA441505) (Craig Veals, Judge)
Before: Laurence D. RUBIN, Presiding Justice
The immediate stay request is denied
I si Laurence D. Rubin
Presiding Justice

App.5a

MINUTE ORDER OF THE
SUPERIOR COURT OF CALIFORNIA
(MARCH 18, 2019)
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
THE PEOPLE OF THE STATE OF CALIFORNIA,
v.
ARTHUR EDWARD EZOR
Case No. BA441505
Information Filed on 06/06/18.
Count 01: 487(A) PC FEL
On 03/18/19 at 830 AM in Central District Dept
122 case called for Jury Trial
•

Parties: Craig E Veals (Judge) Donna Cordell
(Clerk) Marie Dorling (REP) Kelly S. Howick
(DA)

Defendant is present in court, and not repre­
sented by counsel Defendant appears in pro per
•

Own Recognizance/DDA Kelly Howick/
stand-by Elliott Tiomkin

• Investigator Timmy Lee Gibson
Matter is called for hearing. Defense Motion to
Disqualify Prosecuting Attorney is argued and denied.

App.6a

Case is continued for jury trial to the date of April
8, 2019 at 8:30 A.M. in Department 122. 0 of 10 Time
Waiver.
Court Orders and Findings:
•

The Court orders the Defendant to appear on the
next court date.

Next scheduled event:
•

04/08/19 830 AM Jury Trial
Dist Central District Dept 122

Custody status: Defendant remains on own recogni­
zance.

App.7a
PETITION FOR REVIEW, EMERGENCY WRIT OF
MANDATE, STAY OF PROCEEDINGS AND/OR
OTHER APPROPRIATE RELIEF; MEMORANDUM
OF POINTS AND AUTHORITIES; EXHIBITS—
RELEVANT EXCERPTS
SUPREME COURT OF CALIFORNIA
ARTHUR EDWARD EZOR
Petitioner,
v.

THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent.
THE PEOPLE
Real Party in Interest.
Case No. [Arising from the Denial of Petition for
Emergency Writ of Mandate, Stay of Proceedings
and/or Other Appropriate Relief by Court of Appeal
on April 8, 2019, No. B296721]
Los Angeles Superior Court Case No. BA441505
Honorable Craig Veals, Judges Presiding
Arthur Edward Ezor
Petitioner
305 S. Hudson Avenue
Suite 300
Pasadena, California 91101
Telephone: (626) 568-8098

App.8a

To the Honorable Justices of the Supreme Court of
California:
Preliminary and Jurisdictional Statement
1. Petitioner ARTHUR EDWARD EZOR (“EZOR”)
hereby seeks an emergency Writ of Mandate directing
and ordering the Respondent Superior Court to order
dismissal of the criminal case against him due to
flagrant, ongoing and egregious violation of his con­
stitutional rights by the People of the State of Califor­
nia. This unfortunate and illegal state of affairs has
been created by and through the District Attorney of
Los Angeles County, one Jackie Lacey, her deputy
D.A., one Kelly Howick, and their entire office. Spe­
cifically, that office’s personnel, support staff, para­
legals, investigators and likely attorneys have unlaw­
fully and unconstitutionally reviewed and delved into
EZOR’s attorney-client file, including looking at and
culling therefrom several privileged communications,
documents and work product, without his consent,
authorization and knowledge! Such outrageous, illegal
activity by the People mandate dismissal of the criminal
case.
In or about December, 2018, EZOR’s then counsel,
Eugene Fu, improvidently and foolishly left EZOR’s
complete attorney-client file at the downtown Los
Angeles D.A.’s office, for the purpose of the District
Attorney’s Office redacting certain discovery documents
and writings. During that period, Mr. Fu should have
simply met and conferred with deputy D.A. Howick,
the primary attorney assigned to the criminal case,
and solely provided the discovery documents and
writings, as ordered by a Superior Court Judge at an
earlier hearing. Instead, impermissibly and shockingly,

App.9a
the D.A.’s office, upon receipt of the complete attorneyclient file delivered by Mr. Fu, unlawfully detained
and held onto said file for two months or more, reviewed
it thoroughly, and willfully removed certain privileged
work product, writings and memos therefrom. The
confidential and privileged work product and writings
they looked at included and pertained to, without
limitation, EZOR’s confidential defense strategy and
defenses, his former counsel’s confidential written
advice to him, and confidential bank records, checks
and statements involving him and his first former
counsel of record, Robert Moore. During this time
frame, at no time did deputy D.A. Howick notify EZOR,
who was representing himself after Mr. Fu was relieved
as counsel, that she and her office had his attorneyclient file. There was a duty of disclosure which she
and D.A. Lacey unethically violated towards EZOR.
In or about February, 2019, EZOR, now repre­
senting himself, inquired of Mr. Fu what had happened
to his attorney-client file. Mr. Fu acknowledged to
EZOR that he had earlier given EZOR’s complete
attorney-client file to the prosecution. EZOR apprised
the Superior Court of the situation at a hearing. There­
after, Ms. Howick and the D.A.’s Office was ordered by
Judge Veals to deliver the attorney-client file to his
Courtroom Department. There were a number of sub­
sequent hearings concerning what had transpired with
respect to the D.A.’s Office’s detaining and looking at
EZOR’s attorney-client file without his knowledge
and approval. At one hearing, Mr. Robert Moore, who
was summoned by the Court as a material witness
and former counsel, acknowledged that the attorneyclient file was not organized in the manner he had
left it with subsequent counsel Fu and that certain

App.lOa
documents looked at by the D.A.’s Office were defi­
nitely privileged and confidential. EZOR found that
certain documents were flat out missing from the file
and were converted by the D.A.’s Office, such as a
confidential 12-page defense strategy memo previ­
ously faxed to Mr. Moore’s Beverly Hills facsimile
number by EZOR.
The gravamen of this Writ is the unquestionable
tampering with and illegal intrusion by the prosecution
into EZOR’s attorney-client file. Due process has
been violated; EZOR has been deprived of a fair, con­
stitutional process by such tampering and intrusion.
His 5th Amendment right against self-incrimination
has been violated by the prosecution. His 6th and
14th Amendment rights to effective counsel have been
violated by the prosecution in their illegal handling
of his attorney-client file.
2. The criminal case is presently set for 0-10 on
the trial calendar on April 22, 2019, before Judge
Craig Veals of the Los Angeles Superior Court. Emer­
gency relief is necessary and a stay of the proceedings
should be ordered FORTHWITH. This Honorable
Supreme Court needs sufficient time to review and
consider the matters and serious constitutional viola­
tions before it on the merits. Such a stay and relief
will also allow the opposing or interested parties
sufficient time to submit pleadings and briefing, if
they so elect, pertaining to issues and relief sought
by the present Writ of Mandate. Once said Court re­
views the record, evidence and issues presented with
regard to this Writ, EZOR is confident that the
Justices will find that ordering Respondent Superior
Court to dismiss the criminal case with prejudice is

App.lla

the appropriate and fair remedy. The interests of
justice and equity dictate no less.
3. In the alternative, if this Honorable Supreme
Court is of the view and ruling to not order the
Respondent Superior Court to dismiss the criminal
case, Ms. Lacey, Ms. Howick and the entire Los Angeles
District Attorney’s Office, at a . . .
[...]
5. This Court, pursuant to its inherent and statu­
tory powers, has jurisdiction to act given that the lower
courts have recently rejected, without cause, Peti­
tioner mandamus relief.
C.C.P. Section 1085 states in pertinent part: “A
writ of mandate may be issued by any court to any
inferior tribunal... to compel the performance of an
act which the law specifically enjoins ... or to compel
the . . . enjoyment of a right or office to which the
party is entitled, and for which the party is unlawfully
precluded by such inferior tribunal. . . ”
Furthermore, C.C.P. Section 1085 recites that a
Writ of Mandate may be issued, upon verified petition
of the party beneficially interested, where there is
not a plain, speedy and adequate remedy in the
ordinary course of law. The Writ can be either
alternative or peremptory (C.C.P. Section 1087).
Petitioner, and other criminal defendants similarly
situated, have no adequate remedy at law. No other
proceeding is available to them to obtain a speedy
and final resolution of the constitutional issues and
matters presented by this Petition.

App.l2a
Facts
6. On March 15, 2019, EZOR filed in the Los
Angeles Superior Court a Motion to Dismiss the
Criminal Case in View of Recent Developments and
Ongoing Prosecutorial Misconduct and Violation of
his Constitutional, Criminal and Civil Rights; In the
Alternative, Defendant’s Motion to Disqualify D.A.
Lacey, Deputy D.A. Howick and Entire Los Angeles
County District Attorney’s Office, Etc. (Exhibit 1 to
Appendix of Exhibits in Appeal No. B296721). EZOR
filed said Motion promptly upon discovering the illegal
actions of the District Attorney and her office reviewing
and delving into his attorney-client file without his
permission and knowledge. EZOR found that many
privileged written communications of the attorneyclient file had disappeared, gone missing, after
prosecution personnel went through the file.
7. On March 18, 2019, the Los Angeles Superior
Court, the Honorable Craig Veals, Judge, presiding,
denied the Motion. EZOR indicated on the record that
he would exercise appropriate appellate remedies,
and verbally moved for a continuance of pretrial
proceedings. Judge Veals continued the criminal case
to Monday, April 8, 2019, 0-10 for jury trial, and
EZOR waived time as to his right to a speedy trial.
8. On April 5, 2018, EZOR filed a Petition for
Emergency Writ of Mandate, Stay of Proceedings and/or
Other Appropriate Relief in the Court of Appeal of
the Second Appellate District, of the State of California.
The appeal was assigned to Division Five thereof
(Appeal No. B296721). That Petition requested, inter
alia, immediate stay of proceedings in the lower court
and issuance of a Writ of Mandate ordering Respondent

App.l3a

Superior Court to dismiss the criminal case, or, in
the alternative, to disqualify the District Attorney
prosecutors and their office en toto and replace them
with and refer the case to the Attorney General of
California.
9. On April 8, 2019, Court of Appeal Presiding
Justice in Division 5, Laurence D. Rubin, issued an
Order Denying Immediate Stay Request. A true and
correct copy of that Order is • marked and attached
hereto as Exhibit “A” and made a part hereof by
reference.
10. The issue of whether or not a Writ of Mandate
should issue on the merits remained outstanding. In
fact, the Scheduled Actions section of the appellate
docket indicated that interested parties (i.e., the
District Attorney or the Attorney General of California
or the Respondent Superior Court) could file briefing
on or before April 15, 2019, if they so elected.
11. On Friday, April 12, 2019, late in the
afternoon, three Justices of the Court of Appeal (Rubin,
Moor and Kim) denied the Petition for Writ of Mandate.
A true and correct copy of the Order pertaining thereto
is marked and attached hereto as Exhibit “B” and made
a part hereof by reference.
12. It is interesting to note that the Clerk of the
Court, at or about the same time that Exhibit “B” was
issued, conveniently deleted the entry re: Scheduled
Actions, concerning the deadline of April 15, 2019, for
the opposing or interested parties to file elective
briefing. It was a due process violation by the aforesaid
three-judge Division Panel to give the opposing or
interested parties a “free pass” on filing opposition or
responsive papers to the bonafide Writ of Mandate.

App.l4a

In particular, the District Attorney’s Office and
Respondent Superior Court did not have any persua­
sive and justifiable legal and factual grounds upon
which to challenge and oppose the relief requested in
the Writ of Mandate. Given the important constitu­
tional, civil and criminal rights at stake for EZOR,
one would have assumed that the Court of Appeal
would want to hear in writing the position of the
“other side.”
A true and correct copy of the docket sheet of the
Court of Appeal regarding this Writ of Mandate is
marked and attached hereto as Exhibit “C” and made
a part hereof by reference. The Appendix contains not
only the Motion challenged, but transcripts of perti­
nent recent hearings in the Superior Court involving
the issue of the People’s unlawful prying into EZOR’s
attorney-client file without his consent and knowledge.
13. So without the rightful intervention of this
Honorable Supreme Court via this Writ, as matters
now stand, a Los Angeles Superior Court Judge and
three Justices of the Court of Appeal are holding, in
effect, it is alright in the California legal system for
prosecutors and their support staff, paralegals and
investigators to improperly and unethically look at a
criminal defendant’s attorney-client file, remove priv­
ileged and confidential writings therefrom, and even
have the audacity to return that file to the Court
with tampered with or even certain missing writings.
As Hamlet famously proclaimed, “Something stinks in
the State of Denmark.” Similarly, in the criminal case
at bar, something is terribly awry constitutionally.
The District Attorney of Los Angeles County, an expe­
rienced deputy D.A. under her supervision, and mem­
bers of her support staff are violating the California

App.l5a

and U.S. Constitutions. Regrettably, the lower tribunals
in this most serious matter are acquiescing in such
misconduct, constitutional transgressions of the highest
order.
The Parties
ARTHUR EDWARD EZOR: Defendant
[...]
. . . through it for an extensive period of time
without his knowledge and permission. Since this
appeal involves mixed questions of law and fact, they
are generally reviewed de novo. See, for example,
Mathews v. Chevron Corp., 362 F.3d 1172, 1180 (9th
Cir. 2004). The Supreme Court of California should
look at the entire record below and review the matters
and issues before it de novo.
17.
Memorandum of Points and Authorities
I.

The District Attorney and Her Office Violated
the Sixth Amendment Right to Counsel by
Intruding into Ezor’s Attorney-Client File; Their
Actions Also Violated Due Process and Ezor’s Right
Against Self-Incrimination Under the Fifth and
Fourteenth Amendments

A prosecutor’s intentional intrusion into the
attorney-client relationship constitutes a direct inter­
ference with the Sixth Amendment rights of a defend­
ant. It is a per se violation of the Sixth Amendment.
Also the fundamental and due process right to a fair
adversary proceeding is violated by such illicit actions.
See Schillinger v. Hayworth, 70 F.3d 1132, 1142 (10th

App.l6a
Cir. 1996). Improper review and interference with
EZOR’s attorney-client file created a strong presump­
tion of “incurable prejudice” to EZOR. See United
States v. Orman, 417 F.Supp. 1126, 1133 (D.Colo. 1976);
State v. Lenarz, 22 A.3d 536, 544 (Conn. 2011).
II. The Bochin, Velasco-Palacios, Boulas and
Haraguchi Cases Cited by the Court of Appeal in
Exhibit “B” Actually Support Ezor’s Legal Position
That His Constitutional and Criminal Rights Were
Violated
The cases cited by the Appellate Justices actually
support EZOR’s valid position that his criminal case
should be dismissed, or, in the alternative, that
disqualification of D.A. Lacey and her office is
warranted. There was outrageous, unconstitutional
conduct by Ms. Lacey and her office. She and deputy
Kelly Howick, with their support staff, violated EZOR’s
rights to a fair and impartial process. D.A. Lacey and
her deputy counsel, Kelly Howick, are not allowed to
prosecute by devious, illegal and dishonest means.
They hold a public trust not only to EZOR, but to the
government of California and its people. In this case,
they have violated that sacred trust.
D.A. Lacey and her prosecutorial colleagues could
not violate the spirit and provisions of the California
and U.S. Constitutions, as they have done with EZOR.
Prosecutorial misconduct includes and refers to the
use of deceptive or reprehensible methods. People v.
Wiley (1976) 57 Ca.3d 149, 162, 129 CR 13, 21.
A federal case demonstrates that courts will not
tolerate prosecutorial misconduct. But that case,
while referring to unscrupulous U.S. Attorneys in a

App.l7a

major criminal case, has application to state prosecutors
as well.
In U.S. v. Wilson, 289 F.Supp.2d 801 (S.D.Tex.
2003), a wrongful conviction was overturned due to
government attorneys presenting false evidence and
lying to a court. A District Federal Judge noted:
“Honesty comes hard to the government.” “ . . . while
the government may choose to prosecute, it may not
prosecute without telling the whole truth.”
III. Conclusion
The Writ of Mandate should issue as prayed. If
this Court wishes the adversary parties to brief the
issues and questions of law and fact presented by the
Writ, a stay of proceedings should be ordered in the
interim. The Appendix of Exhibits submitted to the
Court of Appeal, incorporated by reference herein,
contains ample evidence, authority, and argument why
Petitioner is entitled to mandamus relief.
Respectfully Submitted,
By: /s/ Arthur Edward Ezor
Petitioner

L

Blank Page

SUPREME COURT
PRESS

